U.S. Department of                        The Inspector General    Office of Inspector General
Transportation                                                     Washington, DC 20590
Office of the Secretary
of Transportation



 November 7, 2006

 The Honorable Barbara Boxer
 United States Senate
 Washington, DC 20510

 Dear Senator Boxer:

 This is in response to your August 17, 2006, request that we examine the
 circumstances surrounding a number of recent failures with air traffic control
 equipment that occurred in Southern California.             The Federal Aviation
 Administration (FAA) is responsible for operating and maintaining the equipment
 used in controlling air traffic in the National Airspace System. We briefed your
 staff on October 18th on the results of our review thus far and the range of actions
 that need to be taken. A copy of the materials that summarize the briefing is
 enclosed in this letter.

 You expressed concern over a number of incidents in Southern California that
 affected all phases of flight. On July 18th, a power outage occurred at Los
 Angeles Center (responsible for managing high-altitude flights) that caused
 hundreds of flight delays. Los Angeles International Airport (LAX), which
 handled over 650,000 operations in 2005, experienced multiple failures of a
 precision landing system between July 20th and August 20th that slowed the
 aircraft arrival rate. In addition, on July 26th and August 14th a safety alerting
 system specifically designed to help controllers prevent collisions was disabled at
 LAX when incidents occurred on a runway and a taxiway.

 Observations on FAA’s Response to Equipment Failures and Next
 Steps
 Based on your concerns, we met with FAA’s Director of Safety and Operations
 Support, regional and local maintenance managers, and local maintenance
 technicians. We reviewed outage statistics, incident reports, and staffing data.
 Also, we visited LAX and the Los Angeles Air Route Traffic Control Center in
 Palmdale, California, to get a first-hand understanding of the issues.




 Control No. 2006-079
                                                                                  2


Power Outage at Los Angeles Center
On July 18th, a traffic accident caused the loss of commercial electrical power to
the Los Angeles Center, the facility responsible for managing high-altitude traffic
in Southern California. Approximately 1 hour later, a component of the electrical
power distribution system failed, causing the loss of the back-up power, shutting
down computers and controller displays used to track aircraft. During the
recovery process, a second failure occurred as an FAA technician attempted to
manually reconnect the power. These power failures caused over 300 flight
delays.

FAA put a special team in place to review this problem and outline corrective
actions. For the short term, the team recommended better training for the
technicians, forensic evaluation of the failed component (to determine the exact
cause of the failure), substitution of the component with a new component,
alerting all sites with this distribution system about the problem, optimizing each
site’s electrical distribution loads, and performing a service-life extension on the
equipment at all sites. FAA has started work on these actions.

For the long term, the team recommended that FAA perform an extensive redesign
of the distribution system to reduce the single points of failure and an internal
review of both the staffing at these sites and the maintenance practices and
procedures on this equipment. In discussions with local managers and technicians,
concerns were raised about staffing levels and balancing workload between
maintaining existing systems and deploying new ones.

Our work shows that a national program is required to solve this problem and
prevent its reoccurrence at other locations. However, funds for this effort have not
been planned or budgeted. While firm cost or schedule estimates are not
available, FAA officials estimate the cost will fall in the $75 million to $100
million range.

Precision Landing System at LAX Failed Five Times
The Instrument Landing System (ILS) is a device that provides precise guidance to
pilots approaching a runway. In July and August, multiple failures of the ILS
located at LAX slowed the arrival rate of approaching aircraft. LAX was already
experiencing restricted arrival rates because one of LAX’s four major runways
was closed for construction.

After each failure of the ILS, local technicians would identify a probable cause,
take corrective action, and bring the system back into service—only to be
followed by another failure. Eventually, the technicians were able to identify all
of the factors that caused the system to go out of service. The system has not
experienced any failures since August.


Control No. 2006-079
                                                                                                     3

Multiple factors contributed to the ILS failures. For example, construction
vehicles near the system interfered with the propagation pattern of the system,
causing interference with the ILS signal and preventing the aircraft from receiving
the signal. Another factor was the age of the system. Parts of the system have
been in place for 10 years and must be replaced. Finally, the system’s
components, such as the antenna and the cable connectors, suffer corrosion
because of the airport’s proximity to the Pacific Ocean.

Given FAA’s problems identifying the underlying causes of the ILS failures, the
Agency must maintain a proactive monitoring and troubleshooting effort on this
system. Also, because of the uncertainty surrounding future satellite-based
precision landing systems, FAA must maintain ILS nationwide into the
foreseeable future.1

Airport Movement Safety System Disabled at LAX
LAX is equipped with a system called Airport Movement Area Safety System
(AMASS). It is a radar-based system designed to provide air traffic controllers
with an automatic alert when the system predicts that two aircraft will collide on a
runway. You expressed concern that this system was not functioning when a
collision between two aircraft was narrowly avoided on July 26th.

Prior to July 26th, AMASS was disabled at LAX because radar reflections from
the runway construction area caused the system to generate a false alert. While
FAA engineers worked to solve the issue, the system was in the “limited” mode,
preventing an automatic alert of an impending collision between two aircraft on
the runway. On July 26th, an aircraft entered an active runway and nearly collided
with another aircraft.

This was not a malfunction of AMASS. False alerts are a longstanding issue with
the radar associated with this system. This is especially common in moderate to
heavy rain conditions that restrict visibility, when controllers need AMASS the
most.

However, it is important to note that even if AMASS had been activated on
August 14th and the system had operated as designed, AMASS would not have
given an alert when a Qantas Airways aircraft was struck by a ground vehicle.
This is because the incident occurred on a taxiway, not a runway. AMASS is not
currently designed to alert controllers about potential collisions on a taxiway.



1
    For more information on FAA’s progress and challenges with its modernization efforts, see Office of
    Inspector General Testimony Number CC-2006-065, “Perspectives on the Progress and Actions Needed
    To Address the Next Generation Air Transportation System,” July 25, 2006. OIG reports and testimony
    can be found on our website: www.oig.dot.gov.


Control No. 2006-079
                                                                                  4

Another close call between two aircraft on the runway was recorded on
September 30th at LAX. FAA reports indicate AMASS was on and the alert did
activate.

FAA’s current plans call for the replacement of AMASS in June 2009 with FAA’s
latest system, the Airport Surface Detection Equipment-Model X (ASDE-X).
Because ASDE-X is also radar-based, it will on occasion suffer from false alerts.

Conclusions
FAA does not see a common thread involving these incidents, but all three areas
remain critical watch items that require sustained FAA management attention.
These events in Southern California underscore the importance of maintaining
existing systems while bringing new ones on line.

A national program is needed to update the power distribution systems at 22 high-
altitude control facilities and at three large facilities that manage traffic in the
vicinity of airports: Southern California, Chicago, and Dallas. We believe that
FAA needs to establish cost and schedule baselines and adjust its Capital
Investment Plan accordingly to ensure the expeditious solution to this problem.

Runway safety remains a concern, particularly given LAX’s history. Based on
your concerns and the recent close call on September 30th, we have included LAX
in our in-depth review of efforts to reduce the risk of runway collisions at high-
activity airports. Our staff will visit LAX in November in connection with this
review.

Taken together, these incidents in Southern California underscore some important
lessons. Runway construction can have an unintended but significant impact on
critical systems. Careful planning is needed to prevent negative effects of the
construction. Aging equipment in harsh environments requires proactive
monitoring and troubleshooting, especially after system failures, to eliminate
subsequent outages.

We have discussed our concerns with FAA officials, including the Vice President
for Technical Operations Services, and they agree with our conclusions and the
need for a national program to update the electrical power system that failed and a
proactive approach for monitoring FAA’s precision landing systems. As noted in
discussions with your office, we plan to initiate a review of FAA’s overall
approach for maintaining the National Airspace System in 2007.




Control No. 2006-079
                                                                                    5


If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Todd J. Zinser, at
202-366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure




Control No. 2006-079
                                                Enclosure
                                               Page 1 of 5

                       Briefing Presentation




Control No. 2006-079
                        Enclosure
                       Page 2 of 5




Control No. 2006-079
                        Enclosure
                       Page 3 of 5




Control No. 2006-079
                        Enclosure
                       Page 4 of 5




Control No. 2006-079
                        Enclosure
                       Page 5 of 5




Control No. 2006-079
                  United States Department of Transportation
                          Office of Inspector General
                  Compliance with Federal Accessibility Laws


The following pages contain Section 508-compliant versions of data that was
presented in the previous document in a non-compliant way. Although this page,
and all pages that follow, were not part of the original document, they have been
added here to assist screen readers that will be used to read this document
electronically.
FAA Equipment Outages In
 Southern California


  Office of the Inspector General
  Congressional Briefing
  October 18, 2006
Table of Contents


 Senator Boxer’s Request

 Scope and Methodology

 Three Issues

 Conclusion


                            2
Senator Boxer’s Request

 On August 17, we were requested to review several
  recent equipment failures at Los Angeles International
  Airport (LAX) and the Los Angeles Air Route Traffic
  Control Center in Palmdale. Specifically, we looked at:
   A power outage at Los Angeles Center on July 18
   Multiple failures of the Instrument Landing System at
      LAX between July 20 and August 20
   The disabling of the Airport Movement Safety System
      during incidents on July 26 and August 14

 Based on these concerns, we have adjusted ongoing
  reviews that are examining FAA efforts to reduce runway
  incursions and the progress to date with Airport Surface
  Detection Equipment-Model X.

                                                            3
Scope and Methodology
To address the Senator’s concerns, we conducted a limited
   review to obtain an understanding of the equipment
   failures. We:
 Met with FAA’s Director of Safety and Operations
  Support, the field System Management Office, the
  Power Service Office, and maintenance technicians
 Reviewed FAA’s documentation of the incidents,
  including outage statistics, incident reports, and staffing
  statistics
 Visited LAX and Palmdale to interview regional and
  facility managers and maintenance technicians to get a
  first-hand perspective

                                                                4
The Three Incidents Affected
All Phases Of Flight
 The July 18th power outage at Los Angeles
  Center (responsible for managing high-altitude
  traffic) shut down the facility and caused over
  300 delays.
 Multiple failures of the precision Instrument
  Landing System (ILS) in July and August
  slowed the arrival rate of aircraft into LAX.
 LAX Surface Movement Safety Alerts were
  disabled on July 26th, preventing an automatic
  alert of an impending collision between two
  aircraft on the runway.

                                                5
Power Outage at
Los Angeles Center
   FAA views the power outage at LA Center as the most serious
    problem because it could occur nationwide.
   Loss of commercial power was followed by multiple failures of
    the internal power distribution system resulting in the loss of
    computers and controller displays that track aircraft
   FAA put a team in place to review the problem.
       Short-Term Recommendations: better training, evaluation of failed
        card, install new card, alert all sites to problem, optimize the
        distribution systems at all centers, and perform service-life
        extension.
       Long-Term Recommendations: redesign to reduce single points of
        failure; review staffing, practices, and procedures.
   Our site visit verified concerns about staffing levels and
    balancing workload between maintaining existing systems and
    deploying new ones (FAA Telecommunications Infrastructure)
   A national program is likely needed to update power
    distribution systems—it has not been planned or budgeted.
    Firm cost or schedule estimates are not available—preliminary
    estimates are in the $75 million to $100 million range.

                                                                            6
Precision Landing System
Failed Five Times
 The Instrument Landing System provides precise
  radio signals to the aircraft for approach to landing.
  Without ILS, fewer aircraft can land, thereby
  reducing capacity.
 Multiple factors contributed to ILS failures:
      Construction on the parallel runway
      Age of System (LAX ILS is 10 years old)
      Environment (closeness to ocean causes increased corrosion)
 Given the problems it has had identifying the
  causes, FAA will have to maintain a close watch on
  this system. Because of uncertainty about future
  precision landing systems, FAA will have to
  maintain ILS well into the foreseeable future.


                                                                     7
Airport Movement Safety
System Disabled at LAX
 LAX has Airport Movement Area Safety System (AMASS)
      AMASS provides controllers an automatic alert when the system
       predicts two aircraft will collide on the runway.
      On July 26th, AMASS was in “limited” mode due to a previous false
       alert caused by radar reflections from runway construction
       equipment, not a malfunction of AMASS.
      False Alerts are a long standing issue, especially in rain conditions.

 On August 14, AMASS, even working as designed, would
  not have sounded an alert before the Qantas Airways
  accident. AMASS only alerts to potential collisions on a
  runway—not a taxiway.
 FAA plans to replace AMASS at LAX with ASDE-X in June
  2009.
 We have larger reviews underway concerning FAA’s
  efforts to reduce runway incursions and new
  technologies to prevent collisions on runways.

                                                                                8
Conclusion
 Although FAA does not see a common thread
  involving all three incidents, events in
  Southern California underscore the importance
  of maintaining existing systems while bringing
  new ones on line.
 All three areas remain critical watch items that
  require sustained management attention.
 A national program is needed to update the
  power distribution systems at enroute facilities
  and 3 large TRACONS which will require cost
  and schedule baselines.
                                                     9
Conclusion         (continued)
 Runway safety remains a concern, particularly
  given LAX’s history. Based on the Senator’s
  concerns and another recent close call on
  September 30th, we have adjusted our ongoing
  reviews. These incidents underscore some
  important lessons:
   Runway construction can have an unintended but
    significant impact on critical systems. Careful
    planning is needed to prevent negative effects of the
    construction.
   Aging equipment in harsh environments needs
    proactive monitoring and troubleshooting, especially
    after system failures, to eliminate subsequent
    outages.


                                                        10
